                                     SENSITIVE BUT UNCLASSIFIED 




                                                                      United States Department of State
                                                                      and the Broadcasting Board of Governors

                                                                      Office ofInspector General
                                                                           OCT 1 3 2011

MEMORANDUM

TO:                  M - Patrick F. Kennedy

FROM:                OIG - Harold W. Geisel, Deputy Inspector              General~~9?
SUBJECT:             Memorandum Report - Review of the FY 2012 Diversity Visa Program Selection
                     Process, ISP-I-12-01


Executive Summary

        Because of errors in the participant selection and notification process, the Bureau of
Consular Affairs (CA) concluded that the FY 2012 diversity visa (DV) program had not been
conducted in compliance with the laws and regulations that govern the program. As a result, CA
nullified the visa lottery results and ran the lottery again. This decision caused a great deal of stress
for persons who were initially notified of their selection to participate in the program but
subsequently had their selections nullified, resulting in a lawsuit against the Department of State
(Department). The U.S. District Court for the District of Columbia denied the plaintiffs' claim for
relief and dismissed the case on July 14, 2011.

        The Office of Inspector General (OIG) conducted a limited-scope review to determine the
factors that led to the flawed selection and notification ofDV participants. OIG inspectors
reviewed relevant records and conducted on-site interviews in Washington, DC, and in
Williamsburg, Kentucky, between July 1 and August 1,2011.

        The OIG team found three problems that led to this failure, all of which stem from the
lack of adherence to sound project management and systems development principles. First, CA's
Office of Consular Systems and Technology (CST) implemented a system programming change
without performing adequate testing. Second, CST changed contract task orders without
notifying the Office of Acquisition Management (AQM). Third, CST management failed to
adequately discuss the changes with all stakeholders and thus did not fully understand how
overseas consular officers administer the DV program.

        The findings detailed in this memorandum report support those found in the OIG
inspection report on CST issued in May 201 1, I which noted that CST failed to adhere to
Department and industry standards in technology management, including contract
administration. 2

I   OIG Report ISP-I-ll-Sl, inspection o/the Bureau o/Consular Affairs. Office o/Consular Systems and 

Technology, May 201 I. 

2   The CST director left h is position on October 5, 20 I I. 


                                                                  1
                                     SENSI1"IVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED 



Review Findings

         The primary reason for the OV 2012 program failure was that CST did not adequately
test the new computer program for the random selection of potential OV program participants.
Section 203(c) of the Immigration and Nationality Act (INA), as amended,3limits the number of
OVs that may be available by both region and country. Therefore, 22 CFR § 42.33(c) requires
that selection be based on random rank-ordering of participants by region through a computer
program designed for this purpose. When participants submit their records, the computer
program assigns a sequential number to each record based on the participant's region.
Subsequently, the selection process uses the sequential numbers to randomly rank-order the
participants' records. CST management decided in November 2010 not to use the commercial
off-the-shelf statistics analysis program that it had used successfully for random rank-ordering in
numerous previous years. Instead, CST management asked one of its contractors to develop a
program. This new computer program had a coding error that produced a nonrandom rank­
ordering and thus failed to meet INA requirements. The program not only selected 98 percent of
the applicants from the first two dates of the allowed submission dates, it also selected multiple
individuals from the same families .

        According to CST management and the contractor staff who developed the new OV
computer program, testing scenarios were limited to validating that all geographic regions were
assigned the correct numerical limitation and that the total number of selectees to be drawn was
accurate. In addition, the development, testing, and production implementation of the program
were done exclusively by one contracting company that, due to poor planning and failure to
consult with all OV stakeholders, did not have adequate information to create a complete test
plan for the computer program . Key stakeholders such as CST's independent validation and
verification team, the Visa Office, and the contractor that operated and managed the legacy
computer program were not involved in planning and implementing the new computer program.

        CST management acknowledged that it did not follow the standard systems development
life cycle (SOLC) process, which establishes standards for planning, developing, testing, and
deploying systems. Sound systems and computer program development calls for the use of the
SOLC process, and in its absence, the project was implemented without the opportunity to
identify and assign the appropriate resources to support and adequately test this critical computer
program. As a result, while the new contractor was developing the new program, the incumbent
contractor tasked with operating and maintaining the legacy selection program was unaware of
the new development effort and was preparing to run the old program. CST did not notify the
incumbent contractor until it was time to run the selection process. Thus there was no
opportunity for the two contracting companies to share information and plan the implementation.

        Furthermore, the decision to move to an internally developed OV randomization
computer program changed the contractors' scopes of work, and the CST director did not notify
AQM of these tasking changes. This lapse provides further support for the OIG May 2011
inspection report recommendation that CA and AQM conduct independent audits of CST
contracts.




3 8 U.S.c. § IIS3(c).

                                                 2
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED 



        CST failed to follow the Department's 5 FAM 610 requirements for project development,
integration, modification, and maintenance of information technology systems, products, and
services. These requirements apply to all Department personnel and to contractors involved in
Department systems and program planning. Additionally, the U.S. Government Accountability
Office in its internal controls standards identifies Application Software Development and
Change Control as one of the internal management controls to mitigate risk for fraud, waste,
abuse, and mismanagement. One of the requirements is that all new or revised software be
thoroughly tested and approved. By not adhering to the SDLC process and Department guidance,
CST failed to meet established quality standards and business objectives and added unnecessary
and costly steps to the program development and testing stages.

Recommendation 1: The Bureau of Consular Affairs should establish and implement a
procedure to monitor and enforce the Office of Consular Systems and Technology's use of the
systems development life cycle process when developing and implementing diversity visa
computer programs. (Action: CA)

         A final issue is that CST managers demonstrated a lack of understanding of visa issuance
procedures and failed to consult appropriately with all stakeholders. For example, CST managers
believed it was necessary to centralize all DV petition data because they erroneously thought the
legacy stand-alone system allowed unqualified applicants to be issued visas without proper
security checks. In actual practice, no visas are issued using the selection database. Consular
officers adjudicate all DV applicants in the same system and with the same clearance processes
as all other immigrant visas issued overseas. Principals in the Visa Office were not aware that
changes had been made to the computer program until after it failed and the results had to be
voided. CST management further stated that it is not clear to them which office is responsible for
administering the DV program.

Recommendation 2: The Bureau of Consular Affairs should designate one directorate to be
responsible for the diversity visa program and establish and implement a procedure for the Office
of Consular Systems and Technology to work closely with that directorate in the development of
any program-essential systems. (Action: CA)

        CST did not create CA-required technological solutions in a standardized and
collaborative environment. The DV 2012 program did not meet its objectives and created
substantial legal costs to the Department and the Federal Government. Further, its failure led to
unnecessary embarrassment for the government and caused undue stress for and inconvenience
to individual applicants.

         The OIG review of the DV 2012 program emphasizes the need for CST to implement the
recommendations made in the May 2011 report. At the time of the current review, CST
management had neither provided OIG with an after-action report nor conducted a lessons
learned analysis to share with CST staff or other stakeholders. CST was also unable to provide
the OIG team with a plan for future implementation of the DV program. These documents are
vital to the effective oversight and management of the DV program and will help avoid this and
similar incidents, as well as their potentially costly consequences, in the future.

Recommendation 3: The Bureau of Consular Affairs should develop and implement a written
plan for the Office of Consular Systems and Technology's implementation of the 2013 diversity

                                                 3
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED 



visa program that details the procedure and those responsible for each function, from the opening
of the application period through visa issuance. (Action: CA)

Recommendation 4: The Bureau of Consular Affairs should develop and implement a plan for
the Office of Consular Systems and Technology to conduct after-action reviews and disseminate
the results as appropriate to promote continued improvement and benefit from lessons learned.
(Action: CA)

          I would be happy to meet with you to discuss this matter further, or your staff may
contact


Enclosures:
       Compliance Information and Instruction Sheet




                                                  4
                             SENSITIVE BUT UNCLASSIFIED
